               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                   Federal Shipping

                       Audit Report




                                              January 18, 2013

Report Number MS-AR-13-004
                                                                         January 18, 2013

                                                                        Federal Shipping

                                                          Report Number MS-AR-13-004




BACKGROUND:
The U.S. General Services                      entry into the General Services
Administration establishes long-term           Administration market, the size and
federal government-wide contracts with         structure of its federal sector sales
vendors to provide goods and services          force, and limited payment methods it
to federal agencies at volume discount         accepts. Further, the U.S. Department
pricing. The General Services                  of Defense provides preferential
Administration established contracts for       treatment to those shippers that have
shipping services with the U.S. Postal         their own air fleet and agree to make
Service and its major competitors.             that fleet available during a national
                                               defense crisis.
While Federal Express and United
Parcel Service have been participant           By overcoming these challenges and
vendors since 2001, the Postal Service         enhancing customer intelligence to
did not participate until May 2009.            identify those federal agencies that
During fiscal years 2011 and 2012,             predominantly ship lightweight
federal agencies spent about                   packages, we estimate the Postal
$342.6 million and $336.9 million,             Service could generate $17.4 million of
respectively, on shipping services             additional revenue annually during fiscal
through GSA contracts. The Postal              years 2013 and 2014. This is in addition
Service’s share of this revenue was            to lost revenue of $21.4 million during
$1.2 million for FY 2011 and $4.8 million      fiscal year 2011 and $17.4 million for
for fiscal year 2012.                          fiscal year 2012.

Our objective was to evaluate the Postal       WHAT THE OIG RECOMMENDED:
Service’s use of General Services              We recommended the Postal Service
Administration contracts to maintain and       address the challenges it faces in the
increase its share of federal agencies’        federal shipping marketplace and
shipping revenue.                              enhance customer intelligence on
                                               federal agencies’ shipping practices.
WHAT THE OIG FOUND:
The Postal Service has opportunities to        Link to review the entire report
increase its share of federal shipping
revenue. Two major challenges include
pricing inflexibility and the lack of 2- and
3-day guaranteed express delivery
products. In addition, the Postal Service
faces challenges resulting from late
January 18, 2013

MEMORANDUM FOR:            WILLIAM C. RUCKER III
                           VICE PRESIDENT, SALES

                           GARY C. REBLIN
                           NEW PRODUCTS AND INNOVATION
                               E-Signed by Janet Sorensen
                           ERIFY authenticity with eSign Deskto




                           for
FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Audit Report – Federal Shipping
                           (Report Number MS-AR-13-004)

This report presents the results of our audit of Federal Shipping (Project Number
13RG001MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet M. Sorensen, director,
Sales and Marketing, or me at 703-248-2100.

Attachments

cc: Nagisa M. Manabe
    Corporate Audit and Response Management
Federal Shipping                                                                                                   MS-AR-13-004



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Challenges to Growing Revenue..................................................................................... 2

   Pricing Flexibility .......................................................................................................... 3

   2- and 3-Day Guaranteed Express Delivery Products ................................................. 5

   Late Entry .................................................................................................................... 5

   Sales Force Size and Structure ................................................................................... 6

   Payment Methods ........................................................................................................ 6

   Air Fleet Requirements ................................................................................................ 7

Customer Intelligence...................................................................................................... 7

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Monetary Impact ....................................................................................... 13

Appendix C: Management's Comments ........................................................................ 14
Federal Shipping                                                                                      MS-AR-13-004




Introduction

This report presents the results of our audit of Federal Shipping (Project Number
13RG001MS000). Our objective was to evaluate the U.S. Postal Service’s use of U.S.
General Services Administration (GSA) contracts to maintain and increase its share of
federal agencies’ shipping revenue. This self-initiated audit addresses strategic risk.
See Appendix A for additional information about this audit.

The GSA establishes long-term federal government-wide contracts with vendors to
provide goods and services to federal agencies at volume discount pricing under the
Federal Supply Schedule program. 1 The GSA established contracts for shipping
services with the Postal Service and its major competitors under Schedule 48,
Transportation, Delivery and Relocation Solutions, Special Item Numbers (SINs) 451-1
and 451-2.2

Although Federal Express (FedEx) and United Parcel Service (UPS) have been vendors
on Schedule 48 since 2001, the Postal Service did not participate until May 2009,
because it did not have a sales force or market strategy that targeted the federal sector.
The GSA also awarded UPS the second generation domestic delivery services (DDS2)
contract.3 The DDS2 contract is a blanket purchase agreement for shipping services
under Schedule 48. The DDS2 contract provides additional discounts to the already low
prices available on GSA's Schedule 48 for shipping services. The DDS2 contract is not
a mandatory contract, and current Schedule 48 contract holders can continue to market
their products and services.

During fiscal years (FY) 2011 and 2012, the Postal Service earned $1.2 million and $4.8
million, respectively, from shipping services through GSA contracts. In addition, the
Postal Service earned $86.2 million and $95.9 million from shipping services for federal
agencies outside the GSA contracts during FYs 2011 and 2012, respectively.

Conclusion

Although its competitors have consistently captured more than 98 percent of shipping
revenue from federal agencies through GSA contracts, the Postal Service has
opportunities to increase its share of this market. However, to realize these
opportunities, the Postal Service must overcome challenges that keep it from growing
revenue in this area. In addition, the Postal Service could benefit from enhanced
customer intelligence on federal agencies’ shipping practices. By overcoming these
challenges and enhancing customer intelligence, we estimate the Postal Service could

1
  Federal Acquisition Regulation (FAR) System, Subpart 8.4, Federal Supply Schedule.
2
  Supplies and services are categorized in each schedule by a SIN. SIN 451-1 is Express Small Package and
Express Heavyweight Delivery Services, and SIN 451-2 is Ground Small Package Delivery Services.
3
  The DDS2 contract is a follow-on contract to the first generation domestic delivery service (DDS1) contract. GSA
awarded the DDS1 contract to FedEx.
                                                            1
Federal Shipping                                                                                        MS-AR-13-004



grow an additional $17.4 million of revenue annually during FYs 2013 and 2014. This is
in addition to lost revenue of $21.4 million during FY 2011 and $17.4 million for
FY 2012. See Appendix B regarding this monetary impact.

Challenges to Growing Revenue

While the federal shipping market from GSA contracts was estimated at $336.9 million
in FY 2012, the Postal Service earned only $4.8 million of this revenue ̶ less than
2 percent of the overall market, as illustrated in Table 1.

         Table 1. Express and Ground Package FY 2011 Delivery Revenue from GSA
                  Contracts

                                              FY 2011 Revenue                        FY 2012 Revenue
                    Vendor
                                         (in millions) Percentage                (in millions)    Percentage
           FedEx                               $205.2       59.9%                        $190.1        56.4%
           UPS                                   131.7      38.5                          138.7        41.2
           Postal Service                          1.2        0.3                           4.8 4        1.4
           Contrans Logistics                      3.7        1.1                            2.7         0.8
           D.C. Dyna                               0.4        0.1                            0.4         0.1
           Others                                  0.4        0.1                            0.1       <0.1
           Total                               $342.6        100%                        $336.9         100%
          Sources: GSA Schedule Sales Query and U.S. Postal Service Office of Inspector General (OIG) Analysis.

The Postal Service faces challenges to growing its share of this market. Specifically,
major challenges include pricing flexibility and the lack of 2- and 3-day guaranteed
express delivery products. In addition, the Postal Service faces challenges resulting
from late entry into this marketplace, the size and structure of its federal sector sales
force, and the payment methods it accepts. Further, the U.S. Department of Defense
(DoD) provides preferential treatment to those shippers that have their own aircraft and
participate in the Civil Reserve Air Fleet (CRAF) program. 5 By overcoming these
challenges, we estimate the Postal Service could generate an additional $34.8 million of
revenue during FYs 2013 and 2014.




4
  FY 2012 revenue includes $2.9 million from a customer that previously purchased through a Postal Service
Commercial Plus Pricing Agreement instead of GSA Schedule 48.
5
  CRAF is a cooperative voluntary program involving the U.S. Department of Transportation, DoD, and the U.S. civil
air carrier industry in a partnership to augment DoD aircraft capability during a national defense-related crisis. Air
carriers volunteer their aircraft to the CRAF program. In return, the participating carriers are given preference for
commercial peace time cargo and passenger traffic for DoD.


                                                           2
Federal Shipping                                                                                          MS-AR-13-004



Pricing Flexibility

The Postal Service does not have the same pricing flexibility as competitors. Federal
law6 requires competitive products, such as Express Mail 7 and Priority Mail,8 to cover
their attributable costs;9 and collectively competitive products must cover an appropriate
share of the Postal Service’s institutional costs. 10 Unlike competitors, the Postal Service
cannot sell products below cost and make up the loss with other products or services to
penetrate a market, attract new customers, or match competitors’ prices.

Postal Service prices on Schedule 48 were not competitive, in most instances, with
those of FedEx and UPS. As shown in Table 2, both FedEx and UPS offered
significantly lower prices on next day express delivery of packages. In the 2- to 3-day
delivery marketplace, Table 3 shows that Postal Service prices are more than FedEx
but less than UPS for local delivery of lightweight packages. For longer distances,
FedEx and UPS have a price advantage over the Postal Service.

                             Table 2. Next Day Express Delivery Prices

                                                                         FedEx
        Weight                              Postal Service              Standard               UPS Next Day
       (pounds)             Zone 11          Express Mail              Overnight®12             Air Saver 13
               1                        2           $11.54                    $4.95                    $6.28
               2                        2           $11.85                    $5.11                    $6.40
               3                        2           $13.44                    $5.60                    $6.51
               1                        8           $24.75                    $4.95                    $6.28
               2                        8           $30.25                    $5.11                    $6.40
               3                        8           $33.05                    $5.60                    $6.51
    Sources: Postal Service, FedEx, and UPS prices from Schedule 48. FedEx and UPS prices were adjusted to
    include the applicable fuel surcharges in effect on October 1, 2012.




6
  39 U.S.C.§ 3633(a).
7
  Express Mail is a Postal Service product that provides guaranteed overnight delivery services to most U.S.
addresses by noon or 3 p.m.
8
  Priority Mail is First-Class Mail that weighs more than 13 ounces. First-Class Mail is a fast and affordable service for
envelopes and packages weighing up to 13 ounces. Delivery is in 3 days or fewer.
9
  Direct and indirect postal costs that can be clearly associated with a particular mail product. It is the sum of volume-
variable cost plus product-specific cost.
10
   Postal costs that cannot be directly or indirectly assigned to any mail class or product. They can be considered
common costs or overhead costs needed for overall operations.
11
   For classes of mail where distance impacts the postage amount, the Postal Service has paired ZIP Codes into
'zones' and measures the distance a mailpiece travels by how many zones the mailpiece crosses.
12
   FedEx Standard Overnight is a FedEx product that provides guaranteed next-business-day delivery by 3 p.m. to
most U.S. addresses, and by 4:30 p.m. to rural areas.
13
   UPS Next Day Air Saver is a UPS product that provides guaranteed next business day delivery by 3:00 or
4:30 p.m. to most U.S. addresses.


                                                            3
Federal Shipping                                                                                   MS-AR-13-004




                                 Table 3. 2- to 3-Day Delivery Prices
`
                                                                      FedEx
         Weight                           Postal Service             Express               UPS 3-Day
        (pounds)            Zone           Priority Mail             Saver®14               Select®15
                1                    2              $4.80                  $4.36                  $5.36
                2                    2              $4.95                  $4.44                  $5.45
                3                    2              $5.06                  $4.75                  $5.53
                1                    8              $5.99                  $4.36                  $5.36
                2                    8              $8.57                  $4.44                  $5.45
                3                    8             $11.95                  $4.75                  $5.53
     Sources: Postal Service, FedEx, and UPS prices from Schedule 48. FedEx and UPS prices were adjusted to
     include the applicable fuel surcharges in effect on October 1, 2012.

Nevertheless, there are options the Postal Service may consider to make its pricing
more competitive. Specifically, to grow revenue in this area, the Postal Service could
offer more competitive prices for 2- to 3-day delivery of lightweight packages (3 pounds
or fewer). Such pricing has been developed on a limited basis through a negotiated
service agreement (NSA) 16




           it may not be apparent to customers that competitors’ base prices do not
include the same level of service that the Postal Service provides. Specifically,

14
   FedEx Express Saver is a FedEx product that provides delivery in 3 business days to businesses by 4:30 p.m. and
to residences by 7 p.m.
15
   UPS 3-Day Select is a UPS product that provides delivery by the end of the 3rd business day.
16
   An NSA is a customized and mutually beneficial contractual agreement between the Postal Service and a specific
mailer. NSAs provide customized pricing and classification under the terms and conditions established in the
agreement and may include modifications to current mailing standards and other postal requirements.


                                                        4
Federal Shipping                                                                                         MS-AR-13-004



competitors’ surcharges for additional services can result in a higher total price than that
of the Postal Service. For example, Table 5 compares Postal Service prices to those of
its competitors for delivery of a 3-pound package to Zone 8 with additional surcharges.




The Postal Service could better position itself in the federal shipping marketplace by
offering prices similar to those negotiated with the             on Schedule 48. In
addition, it could also offer products with reduced base prices and include surcharges
for additional services like its competitors. Such enhancements would better position the
Postal Service to compete in this environment.

2- and 3-Day Guaranteed Express Delivery Products

The Postal Service was disqualified from participating in the lucrative DDS2 contract 19
bidding, because it did not offer 2- and 3-day guaranteed express delivery products --
Priority Mail does not qualify because it does not include a delivery guarantee.
However, during FYs 2011 and 2012 through Quarter 3, Priority Mail air and surface
products actually met these performance measures more than 90-percent of the time.
Adding a 2- and 3-day guaranteed service product would position the Postal Service to
successfully bid on future domestic delivery services contracts.

Late Entry

The Postal Service was a late entrant into the GSA Schedule 48 market. While FedEx
and UPS have been vendors on GSA Schedule 48 since 2001, the Postal Service did
not participate until May 2009. Consequently many federal agencies have long-term
relationships with competitors and are reluctant to switch to the Postal Service. In
addition, some federal agencies, such as the VA and U.S. Department of Agriculture,
required the use of Postal Service competitors.



17
   Cost to provide service to and from less populated areas that carry higher operating costs.
18
   If a recipient's address is incomplete or incorrect, competitors may attempt to find the correct address and
complete the delivery and charge the customer an address correction surcharge.
19
   DDS2 revenue was $105.3 million in FY 2011 and $115.3 in FY 2012.


                                                           5
Federal Shipping                                                                             MS-AR-13-004



The Postal Service is working to overcome late entry barriers by building relationships
with potential customers through trade shows, such as the GSA Expo, 20 networking and
seminars, Federal News Radio, and the GSA eLibrary.21 The Postal Service is also
creating federal sector web pages to enhance its visibility, in response to a recent OIG
report. 22 Enhancing the Postal Service’s visibility and accessibility to federal agencies
could enable the Postal Service to better reach target audiences and inform customers,
with the end goal of increasing sales to federal entities.

Sales Force Size and Structure

The size and structure of the Postal Service federal sector sales force has not been
sufficient for selling shipping services to federal agencies through GSA contracts. The
federal sector sales force consists of 13 federal sector specialists (FSSs) and five
strategic account managers (SAMs) responsible for covering more than 60,000 agency
locations. As a result, the federal sector sales force has to partner with the general
sales force when selling to federal agencies. The federal sector sales force sells
shipping products through Schedule 48 and mailing products off-schedule. While all five
of the SAMs have prior experience selling to federal agencies, only four of the 13 FSSs
have prior experience selling to federal agencies. GSA training for vendors states that
success in selling to the federal government requires a dedicated sales force with
individuals that have prior knowledge of selling to the federal sector. A dedicated federal
sector sales force may be better suited to understand federal terminology, FAR and
practices, and how federal budget cycles impact sales.

Payment Methods

The Postal Service does not always accept the payment methods desired by
customers. Federal agencies shipping with the Postal Service through Schedule 48
must use one of the following payment methods:

    PC Postage (Stamps.com or Endica.com).
    Express Mail corporate account.
    Permit Imprint.
    Official Mail Accounting System.

The Postal Service is at a competitive disadvantage compared to its competitors who
accept multiple payment methods such as electronic billing data files. For example, DoD
financial management regulations require DoD facilities to pay for shipping services
using a government purchase card or electronics means such as U.S. Bank’s Freight
Reporting System supported by Syncada. Syncada is commercial freight auditing and
payment software required by DoD. The Postal Service is taking actions to address this
issue and has signed an agreement with U.S. Bank to facilitate sales to the Sierra Army
20
   The GSA holds an annual event to showcase companies that hold a GSA schedule contract and to provide
networking and training opportunities.
21
   The GSA eLibrary provides the latest GSA contract award information.
22
   Federal Sector Web Pages: Opportunities for Enhancement (Report Number MS-MA-12-002, dated September 12,
2012).


                                                     6
Federal Shipping                                                                               MS-AR-13-004



Depot (SIAD). SIAD is the first client to use this process, and the Postal Service plans to
implement this payment method at 13 other depots. The Postal Service anticipates
$16 million in new business from this arrangement with U.S. Bank and SIAD.

Air Fleet Requirements

The DoD gives preference to vendors that agree to make their aircraft available if
needed during a national defense related crisis through the CRAF program. Because
the Postal Service does not own aircraft, it is prohibited from competing for DoD23
business allocated to CRAF participants, even when demonstrating lower prices.
However, we believe the Postal Service may be able to obtain some portion of this
shipping business without purchasing aircraft by developing partnerships with current
CRAF participants or other air carriers. Certain air carriers may only desire the air
portion of CRAF shipments and could rely on the Postal Service for the ground delivery
requirements portion of the CRAF program. This type of partnership effort may be even
more appealing when the Postal Service’s current air transportation contract with FedEx
expires in September 2013.

Customer Intelligence

The Postal Service could benefit from greater customer intelligence on federal agencies
shipping practices. The Postal Service’s strength is with 2- to 3- day shipment of
lightweight packages. Although the Postal Service’s federal sector sales team targeted
the top five agencies based on how much those agencies spent with competitors in its
'Go to Market' Strategy, this strategy did not identify where the Postal Service’s strength
lies. Instead the Postal Service strategy was to visit the top five agencies and their sub
agencies to determine whether the Postal Service can meet their needs. Although this
strategy led to sales of mailing and shipping products to agencies such as the VA and
the IRS, we believe the Postal Service can capture a larger share of the federal
shipping market through the use of customer intelligence to identify those agencies that
predominantly ship lightweight packages.

The GSA provides resources to vendors to help them succeed in the federal
marketplace. The GSA tracks what federal agencies spend on shipping by agency and
type of service through the DDS2 contract. The Postal Service could work with GSA to
gather information to identify agencies that ship predominantly lightweight packages.
The Postal Service could also survey federal agencies to determine the types and
amounts of packages they ship. The use of customer intelligence would allow the Postal
Service to focus its attention on agencies that can benefit the most from Postal Service
product offerings.

Recommendations

We recommend the vice president, Sales, in coordination with the vice president, New
Products and Innovation:
23
     DoD is one of five agencies the Postal Service targeted on its federal sector strategy.


                                                              7
Federal Shipping                                                              MS-AR-13-004




1. Address the challenges the Postal Service faces in the federal shipping marketplace
   such as pricing flexibility, lack of 2- and 3-day guaranteed express delivery products,
   late entry, sales force size and structure, payment methods, and air fleet
   requirements.

We recommend the vice president, Sales:

2. Identify and develop strategies to enhance customer intelligence on federal
   agencies’ shipping practices.

Management’s Comments

Management agreed with our findings and recommendations. Regarding
recommendation 1, management stated they are addressing the current GSA contract
pricing structure. In addition, management will have discussions on payment methods
and product selection for the federal sector. They will share their findings and actions
with the OIG when these discussions are completed and make a determination on the
next steps to take by January 2014.

Management did not agree with the estimated $34.8 million in revenue that could be
generated during FYs 2013 and 2014 should they overcome the challenges that keep it
from growing revenue in the GSA marketplace. They stated that the lack of detailed
data on the characteristics of federal shipments makes it nearly impossible to predict a
value for Postal Service potential. Management also stated that revenue growth is
dependent on two specific challenges, competitive pricing and product offerings. Until
these challenges are addressed, it is difficult to fully understand the extent of revenue
that can be generated from federal shipping.

Regarding recommendation 2, management stated that as the Pricing group works
towards determining the value of 2- and 3-day guaranteed express delivery products,
further research and intelligence will be gained on federal agency shipping practices.
Pending an evaluation, management will determine the next steps to take by
January 2014. See Appendix C for management's comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. The Postal Service
disagreed with the monetary impact stating that it cannot estimate an amount without
addressing the competitive pricing and product offering challenges mentioned in our
report and obtaining detailed data on the characteristics of federal shipments. We agree
that future data will provide for more precise estimates. However, we believe our
methodology for determining the monetary impact was valid and conservative based
upon currently available Postal Service and GSA data. We believe the Postal Service’s




                                            8
Federal Shipping                                                                MS-AR-13-004



efforts to increase the value of each sale should enhance its ability to realize the
increased revenue disclosed in our report.




                                             9
Federal Shipping                                                               MS-AR-13-004




                         Appendix A: Additional Information

Background

The GSA provides procurement and contracting services for federal agencies through
multiple award Federal Supply Schedules. Under the Federal Supply Schedules
program, the GSA enables companies to offer goods and services to federal users,
through a Federal Supply Schedule award. These schedules assure the federal user of
a provider’s best commercially offered prices under similar conditions and FAR
compliance. This combination eliminates much of the contracting complexity in doing
business with the federal government that has been a barrier in the past to the Postal
Service.

To aid in the acquisition process, each GSA schedule groups similar products, services
and solutions under SINs and provides a list of the vendors awarded GSA contracts.
The GSA established contracts for shipping services with the Postal Service and its
major competitors under Schedule 48. While FedEx and UPS have been vendors on
Schedule 48 since 2001, the Postal Service did not participate until May 2009. The GSA
also awarded UPS the DDS2 contract. During FYs 2011 and 2012, federal agencies
spent about $342.6 million, and $336.9 million respectively, on shipping services
through GSA contracts.

Objective, Scope, and Methodology

Our objective was to evaluate the Postal Service’s use of GSA contracts to maintain
and increase its share of federal agencies’ shipping revenue. To accomplish our
objectives we interviewed Postal Service officials to gain an understanding of the Postal
Service’s federal sector strategy.

We reviewed Postal Service federal sector sales goals and sales reports. We also
reviewed the Postal Service and competitors Schedule 48 contracts and the DDS2
contract. We obtained and reviewed market research to estimate revenue loss. In
addition, we also interviewed GSA officials about Schedule 48 and the DDS2 contract.
We obtained and reviewed GSA sales reports to gain an understanding of the amount
of revenue generated through Schedule 48 and DDS2. We assessed the reliability of
federal sector sales data by interviewing Postal Service officials knowledgeable about
the data. We determined that the data were sufficiently reliable for the purposes of this
report.

We conducted this performance audit from June 2012 through January 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for



                                            10
Federal Shipping                                                            MS-AR-13-004



our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on December 11, 2012, and included
their comments where appropriate.

Prior Audit Coverage

                                                         Final
                                                        Report            Monetary
           Report Title             Report Number        Date              Impact
 Federal Sector Web Pages:         MS-MA-12-002       9/12/2012             None
 Opportunities for
 Enhancement
 Report Results: Opportunities exist for the Postal Service to create federal sector
 web pages that would enhance the visibility of its products and services to federal
 agency purchasing decision makers. Federal sector web pages could enable the
 Postal Service to better reach target audiences and inform customers, with the end
 goal of increasing sales to federal entities. The report recommended the Postal
 Service evaluate the information in this report and determine the feasibility of
 creating federal sector web pages as part of its overall sales strategy. Management
 agreed with the finding and recommendation and stated that they will develop a
 proposal for enhancing their current website.

 Package Delivery Growth             MS-AR-12-003        5/4/2012      $647 million
 Report Results: Although the Postal Service’s strategies for growing its package
 business are sound, their effectiveness has been impacted by (1) lack of a strategic
 decision-making process for evaluating new sale opportunities, (2) sales tracking
 system shortcomings, and (3) chronic sales staff vacancies. The Postal Service can
 grow its package business by stabilizing Sales staffing levels and adding new
 products. The report recommended the Postal Service establish a strategic
 decision-making process for evaluating new sales opportunities, enhance the
 CustomerFirst! System, reassess sales staffing levels, continue to pursue
 legislative change that will allow it to ship beer and wine, and evaluate offering
 prepayment of customs duties and taxes and a local delivery product. Management
 agreed with the findings and recommendations and set forth their plans for
 corrective actions and disagreed with the monetary impact.




                                          11
Federal Shipping                                                         MS-AR-13-004




 Market Intelligence                MS-AR-11-005       8/10/2011    None
 Report Results: The Postal Service could benefit from a stronger integrated
 market intelligence strategy that incorporates best practices used by leading
 companies to target new and existing customers and make more informed business
 decisions. Additionally, management could be missing key marketing opportunities
 because of incomplete or inaccurate customer data. In FY 2010, the Postal Service
 could not accurately assign $3 billion in commercial revenue to corporate
 customers to obtain additional market intelligence and adequately market to those
 customers. Management disagreed with the recommendation to establish a group
 responsible for transforming and aligning market information, and disagreed with
 updating the Customer Experience Measurement survey form. Management agreed
 with the recommendations to develop an automated mechanism to enter and
 validate consistent and complete customer information and to encourage mail
 service providers to provide mail owner information at mail entry.




                                         12
Federal Shipping                                                                                  MS-AR-13-004



                                    Appendix B: Monetary Impact

                                                                                         Amount
                                                                                            (in
          Recommendation                      Impact Category                            millions)
                1                     Revenue Loss24                                          $73.6

The Postal Service should be able to capture 6.6 percent25 of federal agencies’
spending on shipping services through GSA contracts based on its market share of
lightweight package volume in the overall shipping marketplace.

During FY 2011, federal agencies’ spent $342.6 million on shipping services through
GSA contracts; 6.6 percent of $342.6 million is $22.6 million. Therefore, the Postal
Service could have captured $22.6 million if it implemented our recommendations.
During FY 2011 the Postal Service realized $1.2 million from Schedule 48. The net
revenue loss for FY 2011 is $21.4 million ($22.6 million–$1.2 million).

During FY 2012 federal agencies spent $336.9 million on shipping services; 6.6 percent
of this amount is $22.2 million. Therefore, the Postal Service could have captured $22.2
million if it implemented our recommendation. During FY 2012 the Postal Service
realized $4.8 million from Schedule 48. The net loss for FY 2012 is $17.4 million (22.2
million – $4.8 million).

Total revenue loss for FYs 2011 and 2012 is $38.8 million ($21.4 million + $17.4
million). Using the FY 2012 net revenue loss amount of $17.4 million, we estimate that
revenue loss for FYs 2013 and 2014 would be $34.8 million ($17.4 million for 2 years).
We estimate the total revenue loss would be $73.6 million.




24
   Amount Postal Service is (or was) entitled to receive but was underpaid or not realized because policies,
procedures, agreements, requirements, or good business practices were lacking or not followed. May be recoverable
or unrecoverable. May apply to historical events or a future period (in the sense perceived future losses may be
prevented by the implementation of a recommendation).
25
   We took the Postal Service's market share of lightweight packages and applied it to the number of packages
mailed by federal agencies under the FY 2011 DDS2 contract to determine how many packages and how much
revenue could be captured. The Postal Service's amount of revenue was then compared to the total revenue received
under the DDS2 contract, which equated to 6.6 percent.




                                                       13
Federal Shipping                                       MS-AR-13-004



                   Appendix C: Management's Comments




                                  14
Federal Shipping        MS-AR-13-004




                   15
